APPENDIX B:
People v. Scully, 11Cal.5th 542 (2021), California Supreme Court Order Modifying
Opinion and Denying Petition for Rehearing
July 21, 2021

- ..

~-

os~o

CAP-SF

AUG O9 2021
RECEIVED

IN THE SUPREME COURT OF
CALIFORNIA
THE PEOPLE,
Plaintiff and Respondent,
V.

SUPREME COURT

FILED
,,

JUL ~·1 2021
Jorge Navarrete Clerk

Deputy

ROBERT WALTER SCULLY,
Defendant and Appellant.
8062259
Sonoma County Superior Court
SCR-22969

ORDER MODIFYING OPINION AND
DENYING PETITION FOR REHEARING
THE COURT:
The majority opinion in this case, filed on May 24, 2021 ,
and appearing at 11 Cal.5th 542, is modified as follows:
On page 565, in the third sentence of the third full
paragraph, the phrase "68 newspaper articles" is replaced with
"more than 100 newspaper articles," so that the sentence begins:
1.

Based on its review of the more than 100 newspaper
articles submitted . . . .
2.
On page 568, in the second sentence of the second full
paragraph, the phrase "68 newspaper articles" is replaced with
"more than 100 newspaper articles," so that the sentence begins:
In the case below, the trial court considered the more
than 100 newspaper articles submitted . . . .

1

r--

3.
On page 569, in the first sentence of the first paragraph,
the phrase "68 newspaper articles" is replaced with "more than
100 newspaper articles," so that the sentence begins:
We have reviewed the more than 100 newspaper
articles attached ....
4.
On page 569, in the second sentence of the second
paragraph, the phrase "less than half the number of articles" is
replaced with "fewer articles than," so that the sentence begins:
Defendant submitted fewer articles than were
presented in Odle . . ..
5.
On page 570, in the first full paragraph, the second, third,
and fourth sentences currently read: "There are approximately
10 articles, published over the course of nearly 18 months, that
mention defendant's alleged affiliation with the Aryan
Brotherhood or white supremacist group. Most were published
within the first three weeks following Deputy Trejo's killing. The
articles made only passing reference to defendant's Aryan
Brotherhood connection, which was largely described as 'alleged'
or 'reputed.' " These sentences are replaced with the following:
There are appr oximately 13 articles, published over
the course of around 14 months, that mention
defendant's alleged affiliation with the Aryan
Brotherhood or a white supremacist group . Most
were published many months before jury selection
began. Many of the articles made only passing
reference to defendant's Aryan Brotherhood
connection, which was largely described as "alleged"
or "reputed."
6.
On page 571, in the first full paragraph, the second, third,
fourth, and fifth sentences currently read: "Defendant's trial
began more than a year and a half after the initial pretrial
publicity period had subsided. Approximately half of the articles
submitted by defendant were published within the first month
after the offense, and the vast majority of articles were published
within the initial five months of the offense. Thereafter, coverage
was sporadic. Of those that were published after the five-month
mark, which was still one year before jurors were summoned, all

2

.,

'"

but two articles contained factual updates about pretrial
proceedings." These sentences are replaced with the following:
Defendant's trial began about a year and a half after
the offense. Nearly half of the articles submitted by
defendant were published within the first month
after the offense, and approximately 75 percent were
published in the first six months, a year or more
before jury selection began. No articles published in
the three months immediately preceding trial were
submitted in the supporting exhibits.

This modification does not affect the judgment.
The petit ion for rehearing is denied.

3

